                                            March 30, 2001


MEMORANDUM

TO:             Thomas Corwin
                Office of Elementary and Secondary Education


FROM:           Lorraine Lewis /s/

SUBJECT:        Final Audit Report
                Safe and Drug-Free Schools and Communities Act
                Governor’s Program: ED-OIG/A04-A0005

This Final Audit Report (Control Number ED-OIG/A04-A0005) presents the results of our audit
of the Governor’s Program portion of the Safe and Drug-Free Schools and Communities Act.

                                  EXECUTIVE SUMMARY

We performed a limited review of the Governor’s Program of the Safe and Drug-Free Schools
and Communities Act (Act) in six states for fiscal years 1998, 1999 and 2000. In the states we
reviewed, we determined that the funds were used for diverse drug and violence prevention
programs and activities allowed by law, regulations and Departmental guidance. While our
review did not disclose any instances of misuse of program funds in the states we reviewed, we
did note the following issues that caused us to question whether the states were administering the
program as intended by the Act.

        Y The Governor’s Program in the states we reviewed was not primarily serving youths
        that the state education agency or local education agencies did not normally serve or
        those with special needs as defined in the law.

        Y Agencies that receive Governor’s Program funds were not determining if their
        activities were progressing toward achieving the goals of drug, alcohol and violence
        reduction and prevention. The Department’s 1999 Annual Performance Report required
        by the Government Performance Results Act (GPRA) states that the lack of uniform
        information on program activities and effectiveness make Federal oversight difficult.

        Y Governor’s Program offices were neither adequately monitoring nor providing
        adequate technical assistance to agencies receiving Governor’s Program funds.

We discuss these findings and make recommendations in the Audit Results Section of the report.



                                                    .
Thomas Corwin – Page 2


The Office of Elementary and Secondary Education (OESE) did not concur with our findings
and recommendations. OESE’s comments and our responses are discussed in the Audit Results
Section of the report. A copy of the response is included as an Attachment to the report.

                                          BACKGROUND

Title IV of the Improving America’s Schools Act of 1994, the Safe and Drug-Free Schools and
Communities Act (the Act), Public Law 103-382, authorizes programs administered by the Safe
and Drug-Free Schools Program (SDFSP). State education agencies receive 80 percent of the
funding; the Governors receive 20 percent. The Act provides the funds to the Chief Executive
Office in each state for grants and contracts with parent groups, community action and job
training agencies community-based organizations and other public and private nonprofit
organizations and consortia for drug and violence prevention programs and activities.

The program provides support for a variety of drug and violence prevention activities focused
primarily on school-age youths. Governors are to use their program funds to support drug and
violence prevention activities that complement the state educational agency/local educational
agency portion of the Safe and Drug Free Schools and Communities program.

The Governors’ Programs must give priority to activities that serve youths not normally served
by a state education agency or local education agencies, or that reach populations that need
special or additional resources such as youths in juvenile detention facilities, runaway or
homeless youths, and school dropouts.

                                         AUDIT RESULTS

Finding No. 1 -- The Governor’s Program was not serving youths designated in the law as
having priority for service.

Under Section 4114 (b) of the Act, a state’s Chief Executive Officer must give priority to
programs that serve children and youths not normally served by the state education agency or a
local education agency, or populations that need special services or additional resources, when
awarding grants and contracts. Section 4114 (b) (1)(B) provides the following populations as
examples of groups that may need special services or additional resources:

                q preschoolers,

                q youths in detention facilities,

                q runaway or homeless children and youths,

                q pregnant and parenting teenagers, or

                q dropouts.
Thomas Corwin – Page 3


We determined that the states we reviewed were not primarily serving those youths not served by
the state education agency or a local education agency by reviewing the annual reports submitted
to the Department by the states. Also, our review did not find that states were primarily serving
those with special needs as described in the Act.

For example, the Governor’s Program, according to annual reports for the states reviewed,
served about 1,275,000 persons in Fiscal Year 1998. The program served only about 38,800
youths that the state education agency or a local education agency would not normally serve.
Further, the states served only about 66,600 persons from the general community, including
youths under five years of age.

The chart below shows whom the Governor’s Programs served in Fiscal Year 1998 in the states
we reviewed.



                                               3% 5%
                          29%



                                                           63%

               Not Normally Served by SEA/LEA         Community/Under 5
               Normally Served by SEA/LEA             Others


The chart shows that almost two-thirds of the persons served by the Governor’s Programs were
youths attending public or private schools who normally would be served by the state
educational agency/local educational agency portion of the Safe and Drug Free Schools and
Communities Act. About one-third were parents, teachers and law enforcement personnel. Only
three percent of the persons served were those that the state education agency or a local
education agency would not normally serve. In addition, the Governor’s Programs served only
about five percent of other community members, including youths under five years of age.

Several state officials told us that there were very few youths that their state education agency
and the local education agencies did not serve. Officials from two states said us that they
received only a few or no applications from agencies that served out-of-school youths or youths
with the special needs cited in the law. One administrator told us that all students in the state
need additional services. Other officials stated that many youths in school also need services
from community organizations. One state official said that the programs were serving those with
special needs even though those needs were not described in the law. Another state official told
us that pregnant and parenting youths generally remain in school.
Thomas Corwin – Page 4


Some Governor’s programs had similar characteristics to activities of the State Education
Agency portion of the Act in that they provided services during school hours; were held in
school buildings; or were restricted to persons attending a particular school. Officials in one
state said that, while the state education agency and Governor’s Program may serve the same
child, they each do it differently. These same officials also told us the schools have a lot of
trouble adequately serving the needs of all the children.

We asked state level officials if there is a need for a State Education Agency Program and a
separate Governor’s Program, administered by two separate agencies. Some state officials said
that combining the programs would reduce administrative costs and burdens, allowing more
funds for services. One state agency official said the programs should be combined or the law
changed so that the Governor’s Program would serve only those not in school. Other officials
said there was a distinct difference between the Governor’s Program and the State Education
Agency Program and, therefore, one agency should not administer both programs.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education:

1.1     Assist state administrators in finding ways to identify and serve those not served by state
        and local education agencies and those with special needs as defined in the law, or
        consider whether the law needs to be changed to remove these provisions.

1.2     Study the feasibility of combining the Governor’s Program and the State Education
        Agency Program into one program within the Safe and Drug-Free Schools and
        Communities Act with adequate provisions to serve schools and communities.

Auditee’s Response

In its response to the draft report, OESE stated that the data provided demonstrated that most
service recipients were likely to be eligible for service by State or local education agencies, it did
not provide information about whether or not students served needed additional resources or
services.

The response also stated that the draft report did not explore whether or not States have
implemented grant/contract priorities or other processes designed to result in awards to projects
that link to the statutory requirement concerning services for out of school youth needing
additional resources or services. The response further stated that it was not clear if administering
agencies pursued strategies that would have resulted in more funds being devoted to the
designated priority populations, or if those strategies were unsuccessful.

OIG Reply

The Safe and Drug-Free Schools and Communities Act clearly says that funds should go to
designated priority populations. The state agencies we reviewed were not doing this. As shown
above, only about 8 percent of the persons served by the Governor’s Program were those
Thomas Corwin – Page 5


specifically designated by the Act as having priority for service. We reported the reasons given
to us by state agency officials. We also reported that officials told us that many youths in school
also need additional services. The point of our finding is not whether youths in school need
additional services. The point of our finding is two fold: (1) states need assistance in
implementing the priority for service provision of the law; and (2) consideration needs to be
given as to whether this part of the law needs to be revised.

If there is a need for the service priority provisions, then state administrators need assistance in
finding better ways to identify and serve those not served by state and local education agencies
and those with special needs as defined in the law.

Our recommendations remain unchanged.

Finding No. 2 – Agencies that received Governor’s Program funds did not determine if
their activities were progressing toward achieving the goals of drug, alcohol and violence
reduction and prevention.

Section 4117 (b) of the Act provides that states should report on:

        o the implementation and outcomes of the state’s programs and include an
          assessment of the program’s effectiveness.

        o the state’s progress toward attaining its goals for drug and violence prevention.

As one of a series of activities designed to improve the quality of drug and violence prevention,
the Department published the Safe and Drug-Free Schools and Communities Principles of
Effectiveness (Principles) in June 1998. Non-regulatory guidance for implementing the
Principles states that, to ensure use of Title IV funds to reduce drug use and violence among
youths, recipients should:

        o evaluate programs periodically to assess progress toward achieving goals and
          objectives.

        q use evaluation results to refine, improve and strengthen programs and to refine goals
          and objectives as appropriate.

The guidance for using the Principles further states that grant recipients should assess their
programs and use the information about program outcomes to re-evaluate program efforts. The
guidance also states that grantees cannot continue to use funds from the Act to implement
programs that cannot demonstrate positive outcomes.

We reviewed 16 subrecipient grant files. Just four of the subrecipient applications reviewed had
budgeted for program evaluations. Three grant files had no goals or objectives related to drug,
alcohol or violence prevention as a part of their programs. Four subrecipients did not have any
evaluations in their file. Three subrecipients were in their first year. One of these subrecipients
had no goals or objectives relating to drug, alcohol, and violence prevention. Thus, program
results and evaluations were not present in most files we reviewed. Six subrecipients did not
Thomas Corwin – Page 6


evaluate their program using outcome based results. Only one subrecipient’s program evaluation
focused on program outcomes or results.

Officials in the Governor’s Program offices told us that subgrantees were having a difficult time
evaluating program effectiveness. One state official acknowledged that impact evaluations are
lacking and that subgrantees were not tracking program information well. Other state and
subrecipient agency officials admitted that their agencies did not have the information to
determine the effects of their program on the reduction or prevention of drug and alcohol abuse
and violence. They attributed their difficulties, and lack of effective program evaluation, to the
factors below.

Lack of Available Data

        Program officials in one state said they had problems gathering data because the political
        subdivisions and school districts were reluctant to share information. Law enforcement
        agencies were also reluctant to provide specific data about drug and violence related
        activities within their jurisdiction. Officials in another state cited the lack of cooperation
        by a previous State Superintendent of Education as a hindrance to gathering data.
        Consequently, some states used general statewide and demographic data in the states’
        needs assessment and evaluations. However, this information did not provide adequate
        information to enable subrecipient grantees to determine needs and evaluate the
        effectiveness of their program. Subrecipient grantees also reported that they did not have
        data that showed the effectiveness of their programs. Several reported difficulty in
        getting data and information. One program official stated that, although he understood
        the necessity of measuring the program, his focus was on serving the child, not gathering
        data. This official told us he measured effectiveness by observing behaviors.

Difficulty in Developing Performance Measurements and Outcomes

        Several state and subgrantee officials told us that they have difficulty developing
        performance and outcome measurements and evaluations of program effectiveness.
        Several subrecipient agencies said they did not know the effectiveness of their programs
        because they did not know where to get specific information. Several agencies use
        questionnaires and pre and post testing to determine attitudes, but not results. Another
        subgrantee agency told us that data showing a correlation to their program and prevention
        of drug abuse and violence was hard to get. Officials from one state told us that they are
        just beginning the evaluation process and that it would be a while before they will see
        results. Most of the programs used output goals that defined the activities of the program
        rather than outcome goals and objectives that measured the program’s effectiveness.

Limited Resources and Time

        State and subrecipient officials said that thorough evaluations are costly and neither the
        state nor the subrecipient agencies have the resources to conduct such evaluations. In
        two states, the Governor’s Program was one of several that the officials administered.
        Several subrecipients told us that a one-year grant did not provide enough funds or time
Thomas Corwin – Page 7


        to adequately evaluate a program. The average award in 1999, in the states that we
        reviewed, was $33,174.84. We verified that most of the funds in the subgrants we
        reviewed went to program activities, including salaries, and left little or no funding for an
        evaluation. Only four of 16 subrecipients reviewed had budgeted for a program
        evaluation.

        The Principles of Effectiveness states that grant recipients should design and implement
        programs based on research and evaluation that provides evidence that the programs used
        prevent or reduce drug use and violence. The Principles of Effectiveness guidance lists
        resources that can be used to identify programs meeting this criterion. Subrecipient
        agencies were not using those types of programs. State agency officials and subrecipient
        agency officials told us that such programs were expensive. One subrecipient official did
        tell us that inexpensive research-based programs were available through the Internet.
        Nevertheless, the official did not know where to obtain information locally to determine
        how the program affected local conditions.

        Subgrantee agency officials also told us that one year was not enough time to determine
        if a program was effective. These officials stated that multi-year grants would benefit
        program continuity and enhance an agency’s ability to better evaluate programs.

        Some state agency officials agreed with the assessment that multi-year funding would
        help program evaluations. Other officials told us that state laws did not allow multi-year
        grants. One state official told us that increased funding for some grants would eliminate
        some smaller grants thus preventing programs from serving youths. Another state
        official said multi-year grants would limit program oversight and they would lose control
        over the grants.

The Government Performance and Results Act requires the Department to develop performance
goals and objectives and report on results of its performance annually. The Department reported
in its 1999 Annual Performance Report that it monitors progress toward safe and drug-free
schools through national trends in student drug and alcohol use and in student victimization and
violent incidents in school. The Department also noted that drug use and violence involving
youth are affected by other factors, only some of which are under schools’ control. These
include societal and parental attitudes, peer pressure, activities of organized crime and gangs,
community risk factors and advertising and other media factors. These factors are different in
each locality, making it more difficult for Federal actions to respond effectively to local needs.
The Department further reported that the lack of uniform information on program activities and
effectiveness make Federal oversight difficult. Our audit work supported the statements made in
the Department’s 1999 Annual Performance Report concerning the challenges to achieving the
objective of having schools that are strong, safe, disciplined and drug-free.
Thomas Corwin – Page 8


Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education:

2.1     Provide technical assistance to help Governor’s Program officials gather data they can
        use to develop and measure the effectiveness of their programs.

2.2     Provide assistance to Governor’s Program officials in developing performance and
        outcome measures.

2.3     Work with state Governor’s Programs to develop methods of funding programs that will
        allow for the evaluation of progress toward reduction and prevention of drug and alcohol
        abuse and violence among youths.

Auditee’s Response

In its response to the draft report, OESE stated that we relied heavily on comments from program
officials in the States and requested additional documentation about the results of our review of
evaluation results, evaluation plans or other documents.

OIG Reply

We agree that we relied heavily on program officials in the states in support of this finding.
Program officials interviewed included state agency officials and officials from agencies
receiving Governor’s Program funds. From these officials, we obtained the information that
there were little or no objective indicators concerning evaluation requirements such as plans,
assessment results, or other documents as suggested by the Principles of Effectiveness. While
we did rely heavily on the information received in interviews, we did review subgrantee
applications and budgets. The applications and budgets contained neither outcome objective
indicators nor funds for evaluations of results. We added information to the report to reflect the
results of those reviews. We suggested the Department assist the states in developing objective
indicators and a means of gathering and reporting results because neither the states nor the
subgrantees were doing this.

Our recommendations remain unchanged.

Finding No. 3 – Governor’s Program offices were neither adequately monitoring nor
providing adequate technical assistance to agencies receiving Governor’s Program funds.

Section 4112 (c)(4) the Act requires that states develop a plan for monitoring the implementation
of, and providing technical assistance for, drug and violence prevention programs conducted
with Governor’s Program funds. Section 80.40 of Education Department General
Administrative Regulations (EDGAR) requires grantees to monitor grants and subgrant activities
to assure compliance with applicable Federal requirements and the achievement of performance
goals. Section 76.770 of EDGAR requires the development of procedures for providing
technical assistance to ensure compliance with applicable statutes and regulations.
Thomas Corwin – Page 9



Most of the states reviewed were not adequately monitoring and providing technical assistance to
subgrantees. Only one of the six states had implemented a monitoring plan that reasonably
satisfied the requirements of the applicable laws and regulations regarding monitoring.

Monitoring

       Two of the six states reviewed did not have a formal monitoring plan. State officials in
       one state said that they have not adequately monitored subgrantees. The officials
       attributed their limited monitoring efforts to the lack of time, funds, knowledge and
       training. They had developed a proposed monitoring plan and technical assistance
       program. In the other state, an official acknowledged that their program does not have a
       monitoring plan. Instead, program staff review the subgrantees’ plans and applications.
       The official said they are planning to visit subgrantees that need assistance.

       Officials in the other four states said that they have a monitoring plan. Although these
       states had a plan, monitoring efforts were limited. For example, one state awarded 58
       grants one year and 59 grants the next year. Governor’s Program officials in this state
       said program staff reviewed only three to five grants per year. Two states required that
       subgrantees submit monthly program reports. Officials in one state said that they had
       been remiss in not monitoring, even though they require monthly reports from
       subrecipients. Officials in the other state told us that while they review the monthly
       reports, there were not enough administrative funds to properly monitor and visit
       grantees.

       Another state awarded an average of 37 grants a year. Officials said that they have
       monitored about two-thirds of their sub-grantees. However, one subgrantee official told
       us that the state has not conducted a monitoring visit during his four years as director of
       the agency. A state agency official in another state said they had intended to monitor
       each sub-grantee twice a year, but they were unable to do so.

       Though some states were monitoring subgrantees, these efforts were inadequate. For
       example, one state had a program that reasonably satisfied the monitoring requirements
       stated in the Act and in Departmental guidance. But the state had limited information in
       its monitoring records about subgrantees meeting program goals and implementing the
       Principles of Effectiveness. Another state official confirmed that monitoring teams do
       not determine if sub-grantee goals and objectives are outcome based. Their monitoring
       reports did not address performance indicators or assess progress toward reduction and
       prevention of drug and alcohol abuse and violence. Further, their monitoring emphasis
       was not on the Principles on Effectiveness. Most states focused their monitoring and
       evaluation efforts on verifying that subgrantees are carrying out the activities listed in the
       application. Field reports in one state say nothing about the Principles of Effectiveness,
       measured goals, evaluations or any of the programs’ objectives.
Thomas Corwin – Page 10


Technical Assistance

        Officials in each of the states told us that they provided some technical assistance to sub-
        grantees. They stated their offices typically provide technical assistance whenever
        subgrantees request it; when the Governor’s Program office became aware of problems;
        when reviewing plans and applications; and during grants negotiations. Documentation
        was not available to support their claim. Some officials said they provide technical
        assistance during monitoring visits. However, the monitoring reports we reviewed do not
        show the staff provided any technical assistance during the visit.

        Despite the lack of written documentation of technical assistance at the state offices,
        several sub-grantee agency officials said that state offices have provided valuable
        technical assistance when needed. Other sub-grantee officials said that they have had
        limited contact with their respective state office.

Recommendation

We recommend that the Assistant Secretary for Elementary and Secondary Education:

3.1     Provide additional training to assist Governor’s Program officials develop and
        effectively implement a monitoring and technical assistance plan, including how to
        document and report on monitoring and technical assistance visits, with emphasis on the
        Principles of Effectiveness.

Auditee’s Response

In its response to the draft report, OESE stated that the report did not present much objective
documentation for the finding.

OIG Reply

The OESE response to the finding suggests that objective documentation to this finding is
missing. We could not analyze data that was not there. Officials in two states reported that they
did not have a monitoring plan, nor had they monitored their programs. We reported that
officials from two states believed that although they review monthly reports, they were remiss in
monitoring or that they were not properly monitoring, even though they require monthly reports
from subrecipients. We reviewed monitoring reports where they were available. We reported
those results. We found that technical assistance on the part of state program officials has been
haphazard at best for the states we reviewed. We based this on interviews with state agency and
subrecipient agency officials. Our recommendation that the Program Office work more closely
with state officials to assist them in monitoring and technical assistance techniques remains.
Thomas Corwin – Page 11


             AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

Specifically, our objectives were to determine (1) the types of activities funded, (2) whether
grantees were complying with applicable laws and regulations, and (3) whether states were
monitoring and providing technical assistance to grant recipients.

We accomplished our objectives by reviewing laws, regulations and policies applicable to the
Governor’s Program. We met with officials from the Safe and Drug-Free Schools and
Communities Program office. We reviewed reports from state agencies. We stratified states as
small, medium and large, and randomly selected two from each stratum to include in our review.
We visited four Governor’s Program offices (i.e., Delaware, South Carolina, Louisiana and
Florida), interviewed officials and reviewed grant applications, policies, procedures and reports
applicable to the Governor’s Program in the respective states. We visited sixteen recipient
agencies where we interviewed program administrators and reviewed program activities. We
held teleconferences with officials from two other states (i.e., Utah and Michigan).

Our review covered Federal fiscal years 1998, 1999 and some data for fiscal year 2000. We
performed our fieldwork between January and July 2000. We held an exit conference with
Departmental officials in November 2000. We conducted the audit according to government
auditing standards appropriate to the limited scope of our review.

                 STATEMENT ON MANAGEMENT CONTROLS

We did not access the Governor’s Program Offices’ system of management controls because it
was not significant to the specific objectives of our audit. Instead, we reviewed documentation
applicable to awarding, monitoring and reporting on the use of Federal funds designated for use
in the reduction and prevention of drugs, alcohol, and violence.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in management controls. Except as
noted in the audit results’ section, our assessment did not disclose any significant management
control weaknesses that could adversely affect the administration of the Governor’s Program
portion of the Safe and Drug-Free Schools and Communities Act in the states reviewed.

                              ADMINISTRATIVE MATTERS

Please provide us with your final response to each open recommendation within 60 days of the
date of this report indicating what corrective actions you have taken or plan, and related
milestones.

In accordance with Office of Management and Budget Circular A-50, we will keep this audit
report on the OIG list of unresolved audits until all open issues have been resolved. Any reports
unresolved after 180 days from the date of issuance will be shown as overdue in the OIG’s
Semiannual Report to Congress.
Thomas Corwin – Page 12


Please provide the Supervisor, Post Audit Group, Financial Improvement, Receivables and Post
Audit Operations, Office of Chief Financial Officer and the Office of Inspector General, Audit
Services with semiannual status reports on promised corrective actions until all such actions have
been completed or continued follow-up is unnecessary.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act. Copies
of this audit report have been provided to the offices shown on the distribution list attached.


Attachments
  Page 2 -Lorraine Lewis

  While the data provided demonstrate that most service recipients were
  likely to be eligible for service by State or local educational agencies, the
  draft does not provide information about whether or not students served
  needed additional resources or services.

  Additionally, the draft report does not explore whether or not States have
  implemented grant/contract priorities or other processes designed to result
  in awards to projects that link to the statutory requirement concerning
  services for out of school youth or youth needing additional resources or
  services. Based on the information provided in the draft, it is not clear if
  administering agencies pursued strategies that would have resulted in more
  funds being devoted to the designated priority populations, or if those
  strategies were unsuccessful (e.g., applications for funds to benefit the
  target groups were not received or were of inferior quality.)

  Finding No.2 - The current draft report contains little documentation to
  support the stated finding. Instead it focuses heavily on comments from
  program officials in the States. Did auditors ask to review objective
  indicators concerning the evaluation requirements such as evaluation results,
  evaluation plans, or other documents? If so, what were the results of that
  review?

The discussion contained in the report about the comments of State or local
program officials highlights important issues that would contribute to
problems in meeting the requirements for documenting effectiveness, but
little evidence about the results of an objective review are included. We
believe that the report would be significantly strengthened by inclusion of
objective documentation supporting the auditors' conclusion on this issue.

Finding No.3 - Again, the draft report does not present much objective
documentation for this finding. For example, the report cites comments
from a State official that indicate that the State has been remiss in
monitoring, even though that State requires monthly progress reports. This
statement seems to suggest that such reports do not constitute a
satisfactory monitoring strategy. Indeed, monthly reports could constitute
Page 3- Lorraine Lewis

an adequate monitoring strategy, depending on their content and the review
and follow-up provided by program staff, but the draft report fails to
discuss key issues like these that would constitute documentation for the
finding presented. We believe that the report would be significantly
strengthened by inclusion of objective documentation supporting the
auditors' conclusion on this issue.

We appreciate the commitment of resources that your office has made in
conducting this fieldwork, and appreciate your providing us with an
opportunity to review and comment on the draft report. We hope that you
will contact us or our staff (Mari Colvin -OGC; Deborah Rudy -OESE) if you
have any questions about these comments or if we can assist you in any other
way.
